Pet.App.1
S.D.N.Y. – N.Y.C.
17-cv-4723
12-cr-152
McMahon, C.J.
United States Court of Appeals
FOR THE

SECOND CIRCUIT
-----------------------------------------------------------------------

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 15th day of January, two
thousand nineteen.
Present:
Robert A. Katzmann,
Chief Judge,
Peter W. Hall,
Gerard E. Lynch,
Circuit Judges.
Michael Binday,
Petitioner-Appellant,
v.

18-2143

United States of America,
Respondent-Appellee.
Appellant moves for a certificate of appealability. Upon
due consideration, it is hereby ORDERED that the
motion is DENIED and the appeal is DISMISSED

Pet.App.2
because Appellant has not “made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c); see also Miller-El v. Cockrell, 537 U.S. 322,
327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

Pet.App.3
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
____________________________ x
MICHAEL BINDAY,
Petitioner,
-againstUNITED STATES
OF AMERICA,

17 Civ. 4723 (CM)
12 Cr. 152 (CM)

Respondent.
____________________________ x
DECISION AND ORDER DENYING PETITIONER’S
MOTION TO VACATE, SET ASIDE, OR CORRECT
HIS SENTENCE PURSUANT TO 28 U.S.C. § 2255
(Filed May 23, 2018)
McMahon, C.J.:
On October 7, 2013, following a twelve-day jury
trial before this Court, Binday and his two codefendants were found guilty of conspiracy to commit
mail and wire fraud, in violation of Title 18, United
States Code, Section 1349; mail fraud, in violation of
Title 18, United States Code, Section 1341; and wire
fraud, in violation of Title 18, United States Code,
Section 1343, in connection with a scheme to defraud
insurance companies which the defendants purported
to serve as agents.1

1

Defendants Kergil and Resnick were also found guilty of
conspiring to obstruct justice through destruction of records, in

Pet.App.4
On July 30, 2014, the Court sentenced Binday to
144 months’ imprisonment, to be followed by three
years’ supervised release. The Court also ordered substantial forfeiture and restitution.
On October 26, 2015, the Second Circuit affirmed
the convictions and sentences of Binday and his codefendants, directing only a limited remand, at the
Government’s request, for entry of an amended restitution order in a reduced amount of $37,433,914.17.
See United States v. Binday, 804 F.3d 558, 601 (2d Cir.
2015). On December 14, 2015, the Second Circuit denied Binday’s motions for panel and en banc rehearing.
On June 20, 2016, the Supreme Court denied Binday’s
petition for a writ of certiorari. On June 24, 2016, this
Court entered the amended restitution order that the
Second Circuit had directed be entered. Shortly thereafter, Binday began serving his sentence.
On October 2016, three years after the jury’s verdict, Binday filed a motion for a new trial based on purported “newly discovered evidence” pursuant to Rule
33(b)(1). On August 29, 2017, the Court denied the motion.
On June 20, 2017, Binday filed the instant motion
to vacate, set aside or correct pursuant to 28 U.S.C.
§ 2255, alleging that he was deprived of his federal constitutional right to the effective assistance of counsel.
On August 17, 2017, the Court issued an Order requiring the execution of a waiver of the attorney-client
violation of Title 18, United States Code, Section 1512(k) Binday
was not charged in that count.

Pet.App.5
privilege by Binday; for the Government to file its response to the motion within 60 days of defendant’s executed waiver; and allowing prior counsel to consult
with the Government to determine if testimony from
prior counsel is necessary and appropriate. The waiver
was executed, an affidavit from trial counsel was filed,
the Government tendered its response opposing the
motion, and defendant replied.
The motion is denied and the petition is dismissed—there is no need for a hearing.2
Binday’s Ineffective Assistance Claims
To establish an ineffective assistance of counsel
claim, “a defendant must show: (1) that counsel’s representation fell below an objective standard of reasonableness; and (2) that there is a reasonable probability
that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” United
States v. Brown, 623 F.3d 104, 112 (2d Cir. 2010); see
Strickland v. Washington, 466 U.S. 668, 688-89, 693-94
(1984).
With respect to the first element—the “performance” prong—to eliminate the “distorting effects of
hindsight,” Strickland, 466 U.S. at 689, a reviewing
court “ ‘must indulge a strong presumption that counsel’s conduct falls within the wide range of reasonable

2

The Court presumes the reader’s familiarity with the trial
evidence and facts of the case.

Pet.App.6
professional assistance,’ bearing in mind that ‘[t]here
are countless ways to provide effective assistance in
any given case’ and that ‘[e]ven the best criminal defense attorneys would not defend a particular client in
the same way.’ ” United States v. Aguirre, 912 F.2d 555,
560 (2d Cir. 1990) (quoting Strickland, 466 U.S. at 689).
Regarding the second element—the “prejudice”
prong—a defendant must meet the “heavy burden” of
showing “actual prejudice”; in other words, a defendant
“must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at 692,
694. A defendant cannot establish prejudice by merely
showing that counsel’s errors had “some conceivable effect” on the result, for “not every error that conceivably
could have influenced the outcome undermines the reliability of the result of the proceeding.” Id. at 693.
To warrant a hearing on an ineffective assistance
of counsel claim in a Section 2255 petition, a defendant
must show that he has a “plausible” claim of ineffective
assistance of counsel. Armienti v. United States, 234
F.3d 820, 823 (2d Cir. 2000). “Bald allegations” unsupported by evidentiary facts do not warrant a hearing.
Puglisi v. United States, 586 F.3d 209, 213 (2d Cir.
2009) (quoting Newfield v. United States, 565 F.2d 203,
207 (2d Cir. 1977).

Pet.App.7
Trial Counsel
Binday argues that his trial counsel’s performance
was constitutionally deficient because they fundamentally and “obviously” “misunderstood” the law governing mail and wire fraud. (Mot. at 17). Binday asserts
that there were three “permissible defenses” to the
fraud charges against him: “(1) the defendant’s lack of
intent to defraud; (2) that any misrepresentations
were not material, and (3) that the misrepresentations
could not result in tangible economic harm, or stated
another way, the victim was not deprived of ‘potentially
valuable economic information.’ ” (Mot. at 10-17).
Binday then complains that his trial counsel, instead
of crafting a defense around questions of intent, materiality, and economic harm, erroneously argued only
that there was no “actual economic loss,” even though
such a fact “was irrelevant to Mr. Binday’s case.” (Mot.
at 11-17).
It is true that an absence of “actual economic loss”
(Mot. at 11) to an Insurer’s bottom line is not in fact a
viable defense to mail or wire fraud, since the Government is not required to establish that the economic
harm that the defendants’ contemplated was in fact realized. See Binday, 804 F.3d at 569 (“It is not required
that victims of the scheme in fact suffered harm, but
‘the government must, at a minimum, prove that defendants contemplated some actual harm or injury to
their victims.’ ” (quoting United States v. Novak, 443
F.3d 150, 156 (2d Cir. 2006)).

Pet.App.8
But the absence of “actual economic loss,” by itself,
was not the gravamen of Binday’s defense at trial. Rather, as he himself described in his Rule 33 motion,
“Binday’s argument at trial” was “that Prudential and
the other insurers had engaged in a wink and a nod
practice of bashing STOLI publicly, while secretly letting such policies ‘slip through the cracks’ so that they
could earn the hefty premiums that the policies generated.” Binday Mem. in Support of Rule 33 Motion at 13
(“Rule 33 Mem.”) (Dkt. No. 395). Binday’s defense focused on the following interrelated propositions: that
the defendants’ “conduct was not fraudulent because
the insurers happily issued STOLI policies while paying lip service to weeding out STOLI policies for public
relations reasons” (i.e., an argument as to materiality
and lack of a cognizable scheme to defraud); and that
the defendants “did not intend to inflict, and the insurers had not in fact suffered, any harm” (i.e., that there
was no intent to defraud) because “their deceit had
caused no discrepancy between the benefits reasonably
anticipated by the insurers and what they actually received,” given that there is “no meaningful economic
difference between STOLI and non-STOLI policies”
(i.e., that the misrepresentations were not material
and that there was no cognizable economic harm).
United States v. Binday, 804 F.3d at 568.
Each reference Binday makes to support his
characterization that his defense focused on a purported lack of “actual economic loss” distorts what the
defense in fact argued to the jury: that, in light of the
Insurers’ willingness to accept STOLI policies from the

Pet.App.9
defendants, (1) there was no cognizable or tangible economic harm, (2) the defendants could not have intended any such harm, and (3) any misrepresentations
made by the defendants were immaterial to the bargain at hand. These were the legally viable theories of
the defense case, which the defense argued from pretrial motions to summation. (See, e.g., Binday’s Opposition to Government’s Motions in Limine and Federal
Rule of Evidence 404(b) at 3 (Dkt. No. 233) (noting that
the defendants “intend to present evidence concerning
the Insurers’ institutional awareness and encouragement of the Defendants’ activities to demonstrated not
only that the Insurers were not defrauded, but that
there was no scheme to defraud anyone here”).
Binday’s attempts to establish his attorneys’ deficient
performance through misleadingly incomplete compilation of portions of the trial transcript are simply
without merit. See United States v. Binday, 12 CR 152
(CM), ECF Document #440, Government Memorandum at 15-20.
In regard to the Strickland’s prejudice prong,
Binday asserts that “[t]here is a substantial likelihood
that the evidence that Mr. Abramowitz neglected to
present and the examinations he failed to conduct
would have altered the outcome other case.” (Mot. at
18). Putting aside the fact that “[t]here is a ‘strong presumption’ that counsel’s attention to certain issues to
the exclusion of others reflects trial tactics rather than
‘sheer neglect,’ (Harrington v. Richter, 562 U.S. 86, 11112 (2011) (quoting Yarborough v. Gentry, 540 U.S. 1, 8
(2003))—especially where the attorney involved is an

Pet.App.10
esteemed criminal defense practitioner and a leader of
that Bar—each example Binday provides to establish
prejudice falls far short of the mark.
Binday attaches emails from January and February 2006, between himself and Lily Levith, Prudential’s Regional Brokerage Director, and argues they
should have been introduced by the defendant to
demonstrate that “Binday had no intent to harm the
insurance companies because together they achieved
an arrangement that he would continue to produce the
[STOLI] business they wanted privately but could not
accept publicly due to purely social and noneconomic
concerns.” (Mot. at 20 (citing Pet. Exh. A)).
These emails—sent near the very inception of
Binday’s business, when it was “still ramping up [its]
production with Prudential (Pet. Exh. A at 2 (Binday
Email dated Jan. 24, 2006))—make no mention whatsoever of STOLI, IOLI, or even premium financing
therein. Although Prudential was aware of STOLI’s existence at this time (cf. Tr. 499 (Avery testimony that
he first became aware of STOLI in approximately 2004
or 2005)), its efforts to combat STOLI over time
evolved, and in April 2007, Prudential started requiring proposed policyowners to execute a certified statement designed specifically to ensure that STOLI
policies were not issued by the company. (GX 2943 at
6-7 (Policyowner Statement containing questions to
identify STOLI policies); see also id. at 1 (noting that
“[m]ore recently, there has been a proliferation” of
STOLI policies “in which the intent, from the outset, is
to settle the life insurance policies”); id. at 4 (noting

Pet.App.11
that Prudential “will not issue insurance if it is determined that the policy is likely being applied for”
STOLI)).
After Prudential imposed the requirement of execution of the Policyowners Statement, Binday and his
co-conspirators continued to execute and submit Prudential applications with false answers as to these
STOLI-related questions, with an aim of collecting
commissions on Binday’s “large case” business by tricking the Insurers into issuing the policies. (See, e.g., GX
112 (Adler Prudential Application, dated Aug. 30,
2017); GX 118, 132 (Prudential Policyowner Statement
for Adler, with “no” answers, dated Jan. 2, 2008); GX
805, 806, 826 (Espinal Prudential Applications, dated
May 29, Sept. 20 and Dec. 14, 2007); GX 825 at 13, 827
at 8 (Prudential Policyowner Statement for Espinal,
with “no” answers, dated Sept. 20, 2007); GX 2350 at
25 (Robinson Prudential Application and Policyowner
Statement, with “no” answers, dated Dec. 14 2017)).
Against the extensive evidence at trial regarding
Binday’s business at Prudential (including Prudential’s investigation of Binday) in 2007 and 2008, it is
evident the jury would have readily rejected any arguments from Binday based on these early 2006 emails.
Thus, Exhibit A to Binday’s Motion cannot undermine
confidence in the verdict against him so as to establish
prejudice.
Binday next points to (speculative and hypothetical) evidence that could have been presented regarding “Binday’s knowledge of economic similarities
between STOLI policies and other acceptable forms of

Pet.App.12
life insurance,” such as those which use “hybrid premium financing” and “single premium immediate annuities.” (Mot. at 20). Binday further asserts that
“many carriers, including Lincoln, continued to generate the same business that non-recourse lending generated, STOLI, by fiction of “hybrid” loans.” (Mot. at
21). Assuming arguendo that there were evidence to
support these assertions, it would have done nothing
to tip the scales in Binday’s favor at trial.
First, Binday and his co-defendants in essence
made this same argument by highlighting the economic and behavioral similarities between STOLI policies on the one hand and policies sold in the secondary
life settlements market to argue that the anti-STOLI
policies of the Insurers were fiction. That argument
was considered and rejected by the jury.
Second, the overwhelming evidence of the Insurers’ desire not to issue STOLI policies in particular, so
as to warrant the crafting of specific questions designed to weed out and detect STOLI, would defeat any
analogy posited to other types of financing programs.
(Cf. Pet. Ex. B at 1-2 (“John Hancock has not approved
these ‘hybrid’ arrangements. . . . We will continue to
see insurance carriers challenge sales where fraud or
misrepresentation occurred” and “will continue to support a limited number of traditional premium financing programs . . . but which do not present any of the
insurable interest issues of IOLI.”)). Thus, these arguments about Insurers’ acceptance of other forms of insurance do not undermine confidence in the conviction.

Pet.App.13
Binday next argues that the defense erred in not
attacking “the reasonableness of the insurance companies’ expectations that STOLI policies would potentially cause tangible economic harm” by failing to
cross-examine the Insurance company witnesses “regarding the basis for their companies’ concerns” or by
“present[ing] other evidence that the insurance companies’ decisions were not adequately informed.” (Mot.
at 23). To the extent Binday argues that counsels’ cross
examinations of Messrs. Avery and Burns did not
constitute reasonable performance, he ignores the
principle that “[d]ecisions whether to engage in crossexamination, and if so to what extent and to what manner, are . . . strategic in nature.” United States v. Eisen,
974 F.2d 246, 265 (2d Cir. 1992) (quoting United States
v. Nersesian, 824 F.2d 1292, 1321 (2d Cir.), cert. denied,
484 U.S. 957 (1987)). Defense counsel can hardly be
faulted for declining to attempt to establish that the
views of the two insurance company witnesses—one
with four decades and the other with a quarter century’s worth of insurance and actuary experience (Tr.
493, 630-31)—regarding STOLI were “entirely unreasonable or idiosyncratic” (Mot. at 23).
What the defense did accomplish on crossexamination was attempt to undermine the insurance
company witnesses’ assumptions regarding the economic impacts of STOLI. For instance, Mr. Abramowitz
elicited from Michael Burns that he believed the most
significant IOLI risks were “social, legal, and taxrelated,” and not “economic,” and that any such
economic impact would be “difficult to estimate” and

Pet.App.14
“minor” (Tr. 699-702). Mr. Abramowitz also introduced
evidence through Burns that Lincoln was “exploring
opportunities to leverage [its] mortality and risk
management expertise into new, nontraditional businesses” such as life settlements to “provid[e] institutional investors with opportunity for attractive
returns,” (Tr. 722-23 (DX 13)) and that there would
be little difference in the economic consequences to
Lincoln of a STOLI policy versus a life settlement
policy sold immediately upon issuance (Tr. 727-31).
Further, Mr. Abramowitz elicited that, in October of
2008, Burns had concluded that “STOLI activity ha[d]
not had an adverse impact on [Lincoln’s] mortality experience” (Tr. 731-32 (GX 2972 at 3)).
In regard to James Avery, after the Government
had established on direct examination that the pricing
of insurance policies at Prudential was based on “historical experience of ” the performance of “classic,” nonSTOLI policies (Tr. 505), Mr. Abramowitz elicited on
cross-examination that, if STOLI policies had in fact
been issued by Prudential, it would have resulted in
changes to product pricing to reflect the performance
of STOLI within the pool. (Tr. 544). Mr. Abramowitz
further established through Mr. Avery that Prudential
did not vary the cost of its insurance depending upon
the intent of the insured to sell, premium financing, the
purpose behind the purchasing of the insurance, and
whether other applications were pending—each indicia of STOLI policies. (Tr. 547).
All those points were artfully elicited by Mr.
Abramowitz to illustrate the difficulty of establishing

Pet.App.15
“tangible economic harm” resulting to the insurance
companies from the defendant’s scheme. Defendant
certainly suffered no prejudice from Mr. Abramowitz’s
choice in strategy.
Finally, Binday faults his defense counsel for failing to call him as a witness at trial. Mr. Abramowitz
says in his affidavit that he and others at his firm, “advised [Binday] of his right to testify on his own defense
on numerous occasions,” and spelled out the “the potential benefits of his testimony as well as the significant potential risks associated therewith,” including
warning him “that his testimony could significantly
jeopardize his credibility with the jury.” (Abramowitz
Aff. ¶¶ 3-4 (Dkt. No. 439)). These risks included being
“confronted with the numerous false statements set
forth in the insurance applications,” as well as “the
statements he made under oath during his testimony
before the New York State Insurance Department.” (Id.
¶ 4 (citing Order (Aug. 29, 2017) (Dkt. No. 431) (noting
that Mr. Binday “lied under oath when the state authorities got involved.”).
To the extent that Binday believes these risks attendant to his decision to testify could have been mitigated by the introduction of a purported prior
consistent statement that was recorded between
Binday and the family member of an insured’s family
member regarding his beliefs on lapse rates and economic harm (Mot. at 22 (citing Pet. Ex. C at 17)), that
argument too fails. The statement—assuming it would
have been admitted—would more likely have been
viewed by the jury as a self-serving falsehood pitched

Pet.App.16
by Binday to a straw insured’s family member to convince them that the scheme was not in fact fraudulent.
This lack of prejudice is underscored by the fact
that both of Binday’s co-defendants relied for their defenses on similar self-serving lies to establish lack of
intent. Both failed to impress the jury.
James Kergil relied on testimony from cooperating
witness Paul Krupit, to the effect that Kergil told
Krupit that the insurance companies had wanted to issue STOLI, and insurers’ financial statements indicating that universal life sales increased dramatically
during the period that STOLI was popular, in arguing
that the proof as to intent was insufficient at trial. See
Binday, 804 F.3d at 580. In rejecting this argument,
the Second Circuit noted that “[d]espite Kergil’s unsupported and self-serving statement to Krupit, the
jury was certainly entitled to infer, based on [antiSTOLI] certifications and other facts of the case, that
Kergil was aware that the insurers did not want to issue STOLI policies, and that he intended that the numerous misrepresentations in the applications would
cause the insurers to do so against their wishes.” Id.
Similarly, Kevin Resnick’s counsel argued in summation that Resnick lacked requisite intent, as evidenced in part by Krupit’s testimony that Resnick had
told Krupit that “[t]he insurance companies wanted
these policies and turned a blind eye to all the red flags
popping up in the policies . . . because they knew the
truth. They knew that it was STOLI.” (Tr. 1491). The

Pet.App.17
jury, in convicting Resnick on all counts, necessarily rejected this argument too.
Far from a strategic error, defense counsel’s advice
to Binday about the negative consequences of his taking the stand, and the risk that he would be confronted
with his systemic and repeated pattern of lies (on applications, to Straw Insureds, and under oath to a regulatory body), was sound and reasonable. That Binday
now regrets taking his lawyers’ sound advice in no way
undermines the Court’s confidence in the jury’s verdict.
Binday’s Sentencing Counsel
Binday argues that Mr. Frisch was constitutionally ineffective by “fail[ing] to properly challenge the
Government’s calculation of actual loss” in two ways.
(Mot. at 26). First, Binday faults Mr. Frisch for failing
to pursue an evidentiary hearing so that he could challenge the Government’s decision to include loss from
“insurance companies for which there was no evidence
at trial that Mr. Binday intended to deprive them of
‘potentially valuable economic information.’ ” (Mot. at
29). Second, Binday asserts that it was unreasonable
for Mr. Frisch not to have retained an actuary to determine a “reasonable alternative to the Government’s actual loss calculation.” (Id.).
It is well-established that a defendant’s counsel
may properly decide to forego a Fatico hearing as a reasonable, tactical “matter of strategy,” United States v.
Lee, 818 F.2d 1052, 1056 (2d Cir. 1987); see also United

Pet.App.18
States v. Costa, 423 Fed.Appx. 5, 8-9 (2d Cir. 2011)
(summary order) (decision not to request a Fatico
hearing fell “within the range of reasonable professional assistance”); United States v. Santiago, 330
F. App’x 234, 238-39 (2d Cir. 2009); Brito v. United
States, No. 13 Cr. 589 (PKC), 2017 WL 3142074, at *3
(S.D.N.Y. July 24, 2017) (collecting cases); Papetti v.
United States, No. Civ. 09-3626 (DRH), 2010 WL
3516245, at *6 (E.D.N.Y. Aug. 31, 2010) (“[T]he decision
to forego a Fatico hearing is a matter of strategy and
[a court will] presume that such a strategy is sound
absent a strong showing to the contrary.”) (internal
quotation marks and citations omitted).
In this case, Binday’s sentencing counsel prepared
a thorough and well-reasoned sentencing memorandum, vigorously arguing for a non-incarceratory or
short period of imprisonment. (See Dkt. No. 327). In
support, he argued that there was no causal link between the “idiosyncratic fraud at issue” and the economic harm as reflected in the Government’s loss
calculations. (See id. at 2-25). And, with regard to the
actual loss calculation, Mr. Frisch argued specifically
that the Government, by “excluding policies still in
force on which the owners are still paying premiums,
and may continue to do so for years,” arrived at an “artificially high” loss amount by “exclud[ing] the most
profitable period of life insurance” during which an Insured “exceeds his or her life expectancy.” (Id. at 13).
Mr. Frisch also argued, among other things, that the
Government erred in calculating loss on a policy-bypolicy basis instead of looking at the pool as a whole

Pet.App.19
(id. at 21-22), and argued that the Government’s calculation of actual and intended loss did not adequately
account for the investment returns from premiums
paid (id. at 22-23). Binday cannot simply point to Mr.
Frisch’s failure to ask for an evidentiary hearing as
evidence of his deficient performance, in light of the
many ways in which Mr. Frisch argued against the
Government’s method in calculating loss by way of his
papers, and at the sentencing itself.
But assuming arguendo that Mr. Frisch’s failure
to request a Fatico hearing could be construed as unreasonable, Binday cannot sustain his claim in light of
the absolute absence of what evidence, if any, a Fatico
hearing might have established, so as to constitute
prejudice to him. See United States v. Costa, 423
F. App’x 5, 8-9 (2d Cir. 2011). The crux of Binday’s argument appears to be that, had sentencing counsel requested a Fatico hearing, he might have been able to
elicit evidence that seven insurance companies (other
than Prudential and Lincoln) may have not have been
deprived of economically valuable information or exposed to economic risk as a result of the defendants’
scheme. Binday, however, does not suggest what a “reasonable” actual loss calculation would have been. Cf.
Binday, 804 F.3d at 597 (“Notably, the defendants have
not offered an alternative calculation for actual loss,
nor is one readily apparent.”). Indeed, Binday’s failure
to establish prejudice beyond mere hypothesis is evidenced by the conditional way in which his argument
is couched: “If an insurance company did not believe
the issuance of STOLI policies could result in tangible

Pet.App.20
economic harm or if it did not otherwise use the financial information in pricing its policies, any loss incurred could not be part of [Binday’s] scheme.” (Mot. at
28).
But the Government established at trial, through
the testimony of Messrs. Avery and Burns and through
documents, that the insurance industry as a whole did
not want STOLI. (See, e.g., Tr. 496-97 (Avery, noting
from his capacity at Prudential as well as his role on
the American Council of Life Insurance Committee,
that “the industry, as they began to understand it, . . .
never wanted to issue a STOLI policy”); Tr. 536 (Avery
noting that National Council of Life Insurance Legislators and the National Association of Insurance Commissioners had passed model regulation to make
STOLI illegal)). And although the Government did
limit its testimony to two industry witnesses (Prudential and Lincoln) at trial, it introduced corporate policy
statements, not only from those two companies (GX
2922, 2943), but also from AIG (GX 2904), Hancock (GX
2915), and Union Central (GX 2951). It also introduced
the STOLI-targeted questions used by each of nine Insurers, to which the defendants supplied false answers.
(See,e.g., GX 413 at 13 (Security Mutual questions); GX
531 at 5-6, 12-13 (Sun Life questions); GX 541 at 13
(AIG questions); GX 605 at 1-2 (Lincoln questions); GX
650 at 13 (Union Central questions); GX 1324 at 2-4,
GX 1325 at 67 (AXA questions); GX 2000 at 2, 9, 16
(Hancock questions); GX 2350 at 25 (Prudential questions)). This evidence was more than sufficient for the
Government to meet its burden to prove that the

Pet.App.21
scheme included all nine Insurers by a preponderance
for purposes of sentencing. It also establishes that
Binday’s assertion of prejudice on this score is nothing
more than hypothetical speculation.
Indeed, it is equally plausible that, had sentencing
counsel insisted on a Fatico hearing, testimony and
further evidence from the seven other Insurance companies might have yielded evidence supporting an
even greater loss amount. For instance, certain of the
Insurers had taken the position prior to sentencing
that they were entitled to estimated losses based on inforce policies (see Gov’t Sentencing Submission at 58
n.28). The Government—“unaware of precedent for
awarding projected losses in [such] circumstances”—
did not pursue this measure of loss at sentencing. Id.
Had counsel insisted on a Fatico hearing, these additional losses may very well have been back on the table, exposing defendant to even greater loss amounts.
As such, defense counsel cannot be faulted for declining to rolling the dice in this regard, especially when,
as the Second Circuit noted on appeal, there are no
“readily apparent” alternative measures of actual loss.
See generally Greiner v. Wells, 417 F.3d 305, 319 (2d
Cir.2005) (“We will not normally fault counsel for foregoing a potentially fruitful course of conduct if that
choice also entails a significant potential downside.”
(internal quotation marks omitted)).
Similarly, Binday cannot find Strickland fault or
prejudice in his sentencing counsel’s failure to hire an
actuary. He has simply failed to establish that such testimony would have resulted in a different actual loss

Pet.App.22
calculation so as to have impacted his sentencing or
undermine confidence in his sentence.
Finally, even if Binday could do more than speculate as to whether either a Fatico hearing or an actuary
would have resulted in a different Sentencing Guidelines range, Binday cannot establish any prejudice
with regard to his sentence, because the Court in this
case sentenced the defendants “the old-fashioned way”
without regard to the loss amounts calculated for the
Guidelines. (Sentencing Tr. 41-42 (the Court noting
“[f]orget about the amount of fraud loss, whatever it
was or will turn out to be; in the end, this was a scheme
perpetrated over a span of years, brazen . . . and characterized by truly horrible behaviors on the defendants’ part”); see also id. at 11 (noting that this case is
“a perfect example of why [the Guidelines] should be
abolished” in light of “[t]he amount of time, the amount
of money, the amount of effort that has been expended
arguing about the guidelines and how they should be
calculated instead of arguing about Mr. Binday”); id. at
40 (describing case as, after “long time discussing the
calculation,” one that proves the “idiocy” of the Guidelines). As this Court made clear in fashioning Binday’s
sentence, “[t]he fact that the nominal victims here are
major insurance companies does not and ought not
lessen the disgust with which we view the defendants’
behavior.” (Id. at 43). Indeed, the Second Circuit, in reviewing defendant’s sentence, took “comfort in the district court’s emphatic statement that it would have
imposed the same sentence regardless of the loss

Pet.App.23
amount, which renders any error in the loss calculation harmless.” 804 F.3d at 598.
The motion is denied and the petition is dismissed.
The Court declines to issue a certificate of appealability because there has been no “substantial showing
of the denial of a constitutional right.” 28 U.S.C. Section 2253(c)(2); see United States v. Perez, 129 F.3d 255,
260 (2d Cir. 1997). Further, the Court finds, pursuant
to 28 U.S.C. Section 1915(a) (3) that any appeal from
an order denying Binday’s motion would not be taken
in good faith. See Feliz v. United States, 2002 WL
1964347, at *7 (S.D.N.Y. 2002).
This constitutes the decision and order of the
court.
May23, 2018
/s/ Colleen McMahon
Chief District Court Judge

Pet.App.24
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
------------------------------------------------------------------------------------------------------------------------------

At a stated term of the United States Court of Appeals for the Second Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 6th day of May, two thousand nineteen.

Michael Binday,
Petitioner – Appellant,
ORDER
Docket No. 18-2142

v.
United States of America,
Respondent – Appellee.

Appellant, Michael Binday, filed a motion for panel
reconsideration, or, in the alternative, for reconsideration en banc. The panel that determined the appeal has
considered the request for reconsideration, and the active members of the Court have considered the request
for reconsideration en banc.

Pet.App.25
IT IS HEREBY ORDERED that the motion is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

Pet.App.26
STATUTES
18 U.S.C. § 1341
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money or
property by means of false or fraudulent pretenses,
representations, or promises, or to sell, dispose of, loan,
exchange, alter, give away, distribute, supply, or furnish or procure for unlawful use any counterfeit or spurious coin, obligation, security, or other article, or
anything represented to be or intimated or held out to
be such counterfeit or spurious article, for the purpose
of executing such scheme or artifice or attempting so
to do, places in any post office or authorized depository
for mail matter, any matter or thing whatever to be
sent or delivered by the Postal Service, or deposits or
causes to be deposited any matter or thing whatever to
be sent or delivered by any private or commercial interstate carrier, or takes or receives therefrom, any
such matter or thing, or knowingly causes to be delivered by mail or such carrier according to the direction
thereon, or at the place at which it is directed to be delivered by the person to whom it is addressed, any such
matter or thing, shall be fined under this title or imprisoned not more than 20 years, or both. If the violation occurs in relation to, or involving any benefit
authorized, transported, transmitted, transferred, disbursed, or paid in connection with, a presidentially declared major disaster or emergency (as those terms are
defined in section 102 of the Robert T. Stafford Disaster
Relief and Emergency Assistance Act (42 U.S.C. 5122)),
or affects a financial institution, such person shall be

Pet.App.27
fined not more than $1,000,000 or imprisoned not more
than 30 years, or both.
18 U.S.C. § 1343
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money or
property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be
transmitted by means of wire, radio, or television communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the purpose of executing such scheme or artifice, shall be fined
under this title or imprisoned not more than 20 years,
or both. If the violation occurs in relation to, or involving any benefit authorized, transported, transmitted,
transferred, disbursed, or paid in connection with, a
presidentially declared major disaster or emergency
(as those terms are defined in section 102 of the Robert
T. Stafford Disaster Relief and Emergency Assistance
Act (42 U.S.C. 5122)), or affects a financial institution,
such person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.
18 U.S.C. § 371
If two or more persons conspire either to commit any
offense against the United States, or to defraud the
United States, or any agency thereof in any manner or
for any purpose, and one or more of such persons do
any act to effect the object of the conspiracy, each shall

Pet.App.28
be fined under this title or imprisoned not more than
five years, or both.

Pet.App.29
D9HJBIN1
Trial
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
--------------------------------------------- x
UNITED STATES
OF AMERICA,
12 Cr. 152 CM

v.
MICHAEL BINDAY,
a/ka/ Sealed Defendant 1,
JAMES KEVIN KERGIL,
a/k/a Sealed Defendant 2,
and MARK RESNICK,
a/k/a Sealed Defendant 3,
Defendants.
--------------------------------------------- x

September 17, 2013
10:00 a.m.
Before:
HON. COLLEEN McMAHON,
District Judge
and a jury
*

*

*

[1579] Now, as I told you a few minutes ago, a
scheme to defraud is a course or a plan of action to deprive someone of money or property. What does that
mean, deprive someone of money or property? Well, obviously a person is deprived of money or property when
someone else takes his money or property away from

Pet.App.30
him. But a person can also be deprived of money or
property when he is deprived of the ability to make an
informed economic decision about what to do with his
money or property. We referred to that as being deprived of the right to control money or property.
Because the government need only show that a
scheme to defraud existed, not that it succeeded, it is
not necessary for the government to prove that any insurance company actually lost money or property as a
result of the scheme. Such a loss must, however, have
been contemplated by the defendant.
In considering whether loss was contemplated,
keep in mind that the loss of the right to control money
or property constitutes deprivation of money or property only when the scheme, if it were to succeed, would
result in economic harm to the victim. Economic harm
is not limited to a loss on the [1580] company’s bottom
line.
*

*

*

